<html>
<title> - CARING FOR OUR CAREGIVERS: PROTECTING HEALTH CARE AND SOCIAL SERVICE WORKERS FROM WORKPLACE VIOLENCE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                 CARING FOR OUR CAREGIVERS: PROTECTING
                 HEALTH CARE AND SOCIAL SERVICE WORKERS
                        FROM WORKPLACE VIOLENCE

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS


                         COMMITTEE ON EDUCATION
                               AND LABOR
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 27, 2019

                               __________

                            Serial No. 116-6

                               __________

      Printed for the use of the Committee on Education and Labor

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

           Available via the World Wide Web: www.govinfo.gov
                                   or
              Committee address: https://edlabor.house.gov
              
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-660 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f88897b89b8d8b8c909d9488d69b9795d6">[email&#160;protected]</a>                      
              
             
              
              
                    COMMITTEE ON EDUCATION AND LABOR

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

Susan A. Davis, California           Virginia Foxx, North Carolina,
Raul M. Grijalva, Arizona            Ranking Member
Joe Courtney, Connecticut            David P. Roe, Tennessee
Marcia L. Fudge, Ohio                Glenn Thompson, Pennsylvania
Gregorio Kilili Camacho Sablan,      Tim Walberg, Michigan
  Northern Mariana Islands           Brett Guthrie, Kentucky
Frederica S. Wilson, Florida         Bradley Byrne, Alabama
Suzanne Bonamici, Oregon             Glenn Grothman, Wisconsin
Mark Takano, California              Elise M. Stefanik, New York
Alma S. Adams, North Carolina        Rick W. Allen, Georgia
Mark DeSaulnier, California          Francis Rooney, Florida
Donald Norcross, New Jersey          Lloyd Smucker, Pennsylvania
Pramila Jayapal, Washington          Jim Banks, Indiana
Joseph D. Morelle, New York          Mark Walker, North Carolina
Susan Wild, Pennsylvania             James Comer, Kentucky
Josh Harder, California              Ben Cline, Virginia
Lucy McBath, Georgia                 Russ Fulcher, Idaho
Kim Schrier, Washington              Van Taylor, Texas
Lauren Underwood, Illinois           Steve Watkins, Kansas
Jahana Hayes, Connecticut            Ron Wright, Texas
Donna E. Shalala, Florida            Daniel Meuser, Pennsylvania
Andy Levin, Michigan*                William R. Timmons, IV, South 
Ilhan Omar, Minnesota                    Carolina
David J. Trone, Maryland             Dusty Johnson, South Dakota
Haley M. Stevens, Michigan
Susie Lee, Nevada
Lori Trahan, Massachusetts
Joaquin Castro, Texas
* Vice-Chair

                   Veronique Pluviose, Staff Director
                 Brandon Renz, Minority Staff Director
                                 
                                 
                              ------                                

                 SUBCOMMITTEE ON WORKFORCE PROTECTIONS

               ALMA S. ADAMS, North Carolina, Chairwoman

Mark DeSaulnier, California          Bradley Byrne, Alabama,
Mark Takano, California                Ranking Member
Pramila Jayapal, Washington          Francis Rooney, Florida
Susan Wild, Pennsylvania             Mark Walker, North Carolina
Lucy McBath, Georgia                 Ben Cline, Virginia
Ilhan Omar, Minnesota                Ron Wright, Texas
Haley M. Stevens, Michigan
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 27, 2019................................     1

Statement of Members:
    Adams, Hon. Alma S., Chairwoman, Subcommittee on Workforce 
      Protections................................................     1
        Prepared statement of....................................     4
     Byrne, Hon. Bradley, Ranking Member, Subcommittee on 
      Workforce Protections......................................     5
        Prepared statement of....................................     7

Statement of Witnesses:
    Moon-Updike, Ms. Patricia, RN, Wisconsin Federation of Nurses 
      and Health Professionals...................................     9
        Prepared statement of....................................    12
    McClain, Dr. Angelo, Coventry, PhD, LICSW, Chief Executive 
      Officer of the National Association of Social Workers......    16
        Prepared statement of....................................    18
    Rath, Mr. Manesh K., Partner, Keller and Heckman.............    23
        Prepared statement of....................................    25
    Lipscomb, Dr. Jane A., PhD, RN, Professor of Nursing and 
      Medicine, University of Maryland...........................    30
        Prepared statement of....................................    32

Additional Submissions:
    Chairwoman Adams:
        Prepared statement from the American Federation of State, 
          County and Municipal Employees (AFSCME)................    57
        Standards Presentation to California Occupational Safety 
          and Health Standards Board.............................    60
        Prepared statement of Emergency Nurses Association in 
          Support the Workplace Violence for Health Care and 
          Social Service Workers from Workplace Violence.........    74
        Article: Epidemic of Violence Against Health Care Workers 
          Plagues Hospitals......................................    77
        United States of America Occupational Safety and Health 
          Review Commission (Secretary's Post-Hearing Brief).....    89
        United States of America Occupational Safety and Health 
          Review Commission (Brief of Amici Curiae)..............   132
        Sentinel Event Alert.....................................   153
        Violence Prevention in the Mental Health Setting: The New 
          York State Experience..................................   162
        Centers for Disease Control and Prevention (CDC): 
          Violence in the Workplace..............................   185
        Centers for Disease Control and Prevention (CDC): 
          Violence Occupational Hazards in Hospitals.............   187
        Prepared statement from National Nurses United...........   201
        Article: Surveys Find Widespread Violence Against Nurses 
          and Other Hospital Caregivers..........................   233
        Public Employer Workplace Violence Prevention Programs 
          (12 NYCRR PART 800.6)..................................   238
        Occupation Safety and Health Administration (OSHA) Caring 
          for Our Caregivers.....................................   248
        Occupation Safety and Health Administration (OSHA) 
          Workplace Violence Prevention and Related Goals........   292
        Link: Workplace Safety and Health........................   301
        Link: Occupational Safety and Health Administration 
          Instruction............................................   301
        Link: Guidelines for Preventing Workplace Violence for 
          Healthcare and Social Service Workers..................   301
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut:
        Link: Workplace Safety and Health........................   301
    Questions submitted for the record by:
        Chairwoman Adams 

        Foxx, Hon. Virginia, a Representative in Congress from 
          the State of North Carolina............................   309
    Responses to questions submitted for the record by:
        Dr. Lipscomb.............................................   310
        Dr. McClain..............................................   312
        Ms. Moon-Updike..........................................   314
        Mr. Rath.................................................   316

 
                       CARING FOR OUR CAREGIVERS:
                       PROTECTING HEALTH CARE AND
                      SOCIAL SERVICE WORKERS FROM
                           WORKPLACE VIOLENCE

                              ----------                              


                      Wednesday, February 27, 2019

                        House of Representatives

                    Committee on Education and Labor

                 Subcommittee on Workforce Protections

                            Washington, DC.

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:06 p.m., in 
room 2175, Rayburn House Office Building, Hon. Alma S. Adams 
[chairwoman of the subcommittee] presiding.
    Present: Representatives Adams, Jayapal, Wild, McBath, 
Omar, Stevens, Byrne, Walker, Cline, and Wright.
    Also present: Representatives Courtney, Khanna, Scott, and 
Foxx.
    Staff present: Tylease Alli, Chief Clerk; Jordan Barab, 
Senior Labor Policy Advisor, Nekea Brown, Deputy Clerk; Hana 
Brunner, General Counsel Health and Labor; Itzel Hernandez, 
Labor Policy Fellow; Carrie Hughes, Director of Health and 
Human Services; Eli Hovland, Staff Assistant; Stephanie Lalle, 
Deputy Communications Director; Richard Miller, Director of 
Labor Policy; Max Moore, Office Aid; Veronique Pluviose, Staff 
Director; Banyon Vassar, Deputy Director of Information 
Technology; Katelyn Walker, Professional Staff; Cyrus Artz, 
Minority Parliamentarian, Marty Boughton, Minority Press 
Secretary; Courtney Butcher, Minority Coalitions and Member 
Services Coordinator; Akash Chougule, Minority Professional 
Staff Member; Rob Green, Minority Director of Workforce Policy; 
John Martin, Minority Workforce Policy Counsel; Hannah Matesic, 
Minority Legislative Operations Manager; Kelley McNabb, 
Minority Communications Director; Alexis Murray, Minority 
Professional Staff Member; Ben Ridder, Minority Legislative 
Assistant; Heather Wadyka, Minority Staff Assistant; and Lauren 
Williams, Minority Professional Staff Member.
    Chairwoman ADAMS. The Subcommittee on Workforce Protections 
will come to order. I want to thank everyone for being here and 
thank our witnesses and all of the other folks who have come as 
well. I note that a quorum is present and want to thank the 
ranking member for being here as well.
    I ask unanimous consent that Mr. Courtney of Connecticut 
and Mr. Khanna of California be permitted to participate in 
today's hearing with the understanding that their questions 
will come only after all members of the Subcommittee on 
Workforce Protections on both sides of the aisle who are 
present have had opportunity to question the witnesses. Without 
objection? So ordered.
    The committee is meeting today for this legislative hearing 
to hear testimony on Caring for the Caregivers Protecting 
Health Care and Social Service Workers from Workplace Violence. 
Pursuant to the committee rule 7(c), opening statements are 
limited to the chair and the ranking member and this allows us 
to hear from our witnesses sooner and it provides all members 
with adequate time to ask questions.
    So I want to recognize myself now for the purpose of making 
an opening statement.
    Today, we are here to discuss solutions for protecting our 
country's front line caregivers from violence in the workplace. 
The people who work in our Nation's hospitals, nursing homes 
and other health care institutions, as well as social workers 
and other health care providers offer critical assistance to 
those in need. They fulfill this role despite inadequate pay, 
odd and difficult hours, and as we will discuss, the frequent 
threat of violence at the hands of people they serve.
    This hearing is an opportunity to assess the steps taken by 
the Occupational Safety and Health Administration to address 
workplace violence. It is also a forum to discuss relevant 
legislation, namely H.R. 1309, the Workplace Violence 
Prevention for Health Care and Social Service Workers Act, 
which would require OSHA to issue a strong violence prevention 
standard.
    Workplace violence is a serious concern for 15 million 
health care workers in the United States. Although health care 
and facilities are viewed as a place to get well, the reality 
is that day-to-day work in these facilities exposes many 
employees to an unacceptably high risk of violent injury. Last 
year, the Bureau of Labor Statistics reported that health care 
and social service workers are--were nearly five times as 
likely to suffer a serious workplace violence injury than 
workers in other sectors.
    Public employees are even worse off. In 2017, State 
government health care and social service workers were almost 
nine times more likely to be injured by an assault than 
private-sector health care workers. To make matters worse, 
public employees in 24 States, almost 9 million workers, are 
not even covered by OSHA and even though they do the exact same 
work as private sector employees and face the same hazards.
    The injuries to caregivers are just not physical. And as we 
will hear today, even when the body recovers from workplace 
assaults, these professionals are often plagued with career 
ending post-traumatic stress disorders for the rest of their 
lives. These violent incidences are not just part of the job.
    They are predictable, and they are preventable.
    OSHA has not ignored this problem, but it currently lacks 
the tools to address it adequately. OSHA first issued guidance 
to protect health care and social service workers from 
workplace violence over 20 years ago.
    The Obama Administration updated that guidance, 
prioritizing enforcement of safe working conditions for health 
care workers threatened by workplace violence. And for the 
first time, the Obama Administration put workplace violence on 
the agency's regulatory agenda, starting the long rulemaking 
process. But where we are today isn't good enough. Far from it.
    First, there is currently no OSHA standard that requires 
employers to implement violence prevention plans that would 
help reduce injuries to those workers. As a result, inspectors 
are forced to use the highly burdensome and time consuming 
General Duty Clause in the OSHA Act. And pending litigation may 
eliminate even that weak tool from OSHA's limited enforcement 
arsenal.
    Second, the Trump Administration is unlikely to ever issue 
a workplace violence standard. One of President Trump's first 
actions was to issue the so called one in, two out Executive 
Order that requires agencies issuing a new regulation to 
rescind two regulations of equal cost. Shortly after taking 
office, the Trump Administration suspended work on the 
Workplace Violence Prevention Standard where it languished for 
a year.
    Currently, OSHA plans to hold a panel with small businesses 
to discuss violence prevention at some point in the coming 
year. But the agency is many years away from issuing a proposed 
standard, much less a final one. Even if the Administration was 
committed to moving quickly, it simply takes far too long to 
issue an OSHA standard.
    The Government Accountability Office estimated 
conservatively that it takes OSHA over 7 years to issue a 
standard. The reality is much longer. It took OSHA 20 years to 
issue its silica and beryllium standard. Front-line caregivers 
can't wait that long for a solution.
    To ensure that health care and social service workers have 
the protection they deserve, Congressman Courtney from 
Connecticut, who will be with us today, has introduced the 
Workplace Violence Prevention for Health Care and Social 
Service Workers Act. This bill would compel OSHA to issue a 
standard requiring employers within the health care and social 
service sectors to develop and implement a workplace violence 
prevention plan.
    That plan would identify risks, specify best work practices 
and environmental controls, and require training, reporting, 
and incident investigations. OSHA's standard would require 
employers to maintain a violence incident log and prepare an 
annual summary of such incidents.
    I would also extend protection--it would also extend 
protections to public employees in the 24 States not covered by 
OSHA protections by requiring State health care institutions 
and social service agencies that receive Medicare funds to 
comply with the standard.
    Finally, instead of forcing health care and social service 
workers to wait years or decades for effective OSHA 
protections, this legislation would require OSHA to issue an 
interim final standard 1 year after enactment and a final 
standard within 42 months of enactment. These are not radical, 
impractical, infeasible or unaffordable requirements.
    While the Federal Government's efforts have stalled, some 
states, such as California, have already adopted violence 
prevention standards that protect health care workers without 
putting an undue burden on employers.
    The measures as H.R. 1309 would require OSHA to include in 
a standard are almost exactly the same as what OSHA has been 
recommending in its guidance documents. They are also nearly 
identical to the Joint Commission recommendations for health 
care institutions across the country. The difference is that 
these measures would for the first time be enforceable. Health 
care and social service workers do important, live-saving work 
and the least that we can do is to ensure that they can come 
home safe at the end of their workday. We need to ask ourselves 
what is the price of inaction?
    Today we will hear that price. And we will hear what we can 
do to prevent it. I want to thank all of our witnesses for 
being with us today and I look forward to your testimony.
    I now recognize the distinguished ranking member for the 
purpose of making an opening statement.
    [The statement of Chairwoman Adams follows:]

 Prepared Statement of Hon. Alma S. Adams, Chairwoman, Subcommittee on 
                         Workforce Protections

    Today, we are here to discuss solutions for protecting our 
country's front-line caregivers from violence in the workplace.
    The people who work in our Nation's hospitals, nursing homes and 
other health care institutions as well as social workers and other 
health care providers offer critical assistance to those in need.
    They fulfill this role despite inadequate pay, odd and difficult 
hours, and as we'll discuss the frequent threat of violence at the 
hands of the people they serve.
    This hearing is an opportunity to assess the steps taken by the 
Occupational Safety and Health Administration to address workplace 
violence.
    It is also a forum to discuss relevant legislation, namely: H.R. 
1309, the ``Workplace Violence Prevention for Health Care and Social 
Service Workers Act,'' which would require OSHA to issue a strong 
violence prevention standard.
    Workplace violence is a serious concern for 15 million health care 
workers in the United States.1
    Although health care facilities are viewed as a place to get well, 
the reality is that day-to-day work in these facilities exposes many 
employees to an unacceptably high risk of violent injury.
    Last year, the Bureau of Labor Statistics reported that health care 
and social service workers were nearly five times as likely to suffer a 
serious workplace violence injury than workers in other sectors.
    Public employees are even worse off.
    In 2017, State government health care and social service workers 
were almost nine times more likely to be injured by an assault than 
private-sector health care workers.
    To make matters worse, public employees in 24 States almost 9 
million workers are not even covered by OSHA, even though they do the 
exact same work as private sector employees and face the same hazards.
    The injuries to caregivers are not just physical.
    As we will hear today, even when the body recovers from workplace 
assaults, these professionals are often plagued with career-ending 
post-traumatic stress disorders for the rest of their lives.
    These violent incidents are not just part of the job. They are 
predictable, and they are preventable.
    OSHA has not ignored this problem, but it currently lacks the tools 
to address it adequately.
    OSHA first issued guidance to protect health care and social 
service workers from workplace violence over 20 years ago.
    The Obama Administration updated that guidance, prioritizing 
enforcement of safe working conditions for health care workers 
threatened by workplace violence.
    And for the first time, the Obama Administration put workplace 
violence on the agency's regulatory agenda, starting the long 
rulemaking process.
    But where we are today is not good enough. Far from it.
    First, there is currently no OSHA standard that requires employers 
to implement violence prevention plans that would help reduce injuries 
to these workers.
    As a result, inspectors are forced to use the highly burdensome and 
time-consuming General Duty Clause in the OSHA Act.
    And pending litigation may eliminate even that weak tool from 
OSHA's limited enforcement arsenal. Second, the Trump Administration is 
unlikely to ever issue a workplace violence standard.
    One of President Trump's first actions was to issue the so-called 
``one-in, two out'' Executive Order that requires agencies issuing a 
new regulation to rescind two regulations of equal cost.
    Shortly after taking office, the Trump Administration suspended 
work on the Workplace Violence prevention standard while it languished 
for a year.
    Currently, OSHA plans to hold a panel with small businesses to 
discuss violence prevention at some point in the coming year, but the 
agency is many years away from issuing a proposed standard--much less a 
final one.
    Even if the administration was committed to moving quickly, it 
simply takes far too long to issue an OSHA standard.
    The Government Accountability Office estimated, conservatively, 
that it takes OSHA over 7 years to issue a standard. The reality is 
much longer.
    It took OSHA 20 years to issue its silica and beryllium standards. 
Front-line caregivers can't wait that long for a solution.
    To ensure that health care and social service workers have the 
protections they deserve, Congressman Courtney from Connecticut, who 
will be with us today, has introduced the ``Workplace Violence 
Prevention for Health Care and Social Service Workers Act.''
    This bill would compel OSHA to issue a standard requiring employers 
within the health care and social service sectors to develop and 
implement a workplace violence prevention plan.
    That plan would identify risks, specify both work practices and 
environmental controls, and require training, reporting, and incident 
investigations.
    OSHA's standard would require employers to maintain a Violence 
Incident Log and prepare an annual summary of such incidents.
    It would also extend protections to public employees in the 24 
States not covered by OSHA protections by requiring State health care 
institutions and social service agencies that receive Medicare funds to 
comply with the standard.
    Finally, instead of forcing health care and social service workers 
to wait years or decades for effective OSHA protections, this 
legislation would require OSHA to issue an interim final standard 1 
year after enactment, and a final standard within 42 months of 
enactment.
    These are not radical, impractical, infeasible or unaffordable 
requirements.
    While the Federal Government's efforts have stalled, some States, 
such as California, have already adopted violence prevention standards 
that protect health care workers without putting an undue burden on 
employers.
    The measures that H.R. 1309 would require OSHA to include in a 
standard are almost exactly the same as what OSHA has been recommending 
in its guidance documents.
    They are also nearly identical to the Joint Commission 
recommendations for health care institutions across the country.
    The difference is that these measures, would, for the first time, 
be enforceable. Health care and social service workers do important, 
live-saving work.
    The least we can do is ensure that they can come home safe at the 
end of their workday. We need to ask ourselves: What is the price of 
inaction?
    Today we will hear that price.
    And we will hear what we can do to prevent it.
    I want to thank all of our witnesses for being with us today and I 
look forward to your testimony. I now yield to the Ranking Member, Mr. 
Byrne for his opening statement.
                                 ______
                                 
    Mr. BYRNE. Thank you, Madame Chairwoman and let me say I 
want to congratulate you on receiving the gavel on this 
subcommittee. I had it last Congress and I know it is in good 
hands this Congress. This is not the first time that Ms. Adams 
and I have worked together on things. She founded the 
Bipartisan Historically Black College and University Caucus and 
was gracious enough to ask me to be her co-chair on that. So 
here we are again.
    Chairwoman ADAMS. That is right.
    Mr. BYRNE. It's good. I thank the gentlewoman for yielding. 
Allow me to begin this afternoon by saying that protecting the 
safety of health care and social service workers is not a 
partisan issue. It doesn't take having a liberal or 
conservative bent to appreciate the hard work and empathy that 
hospital workers and community caregivers demonstrate every 
single day on the job. Their dedication to carrying for the 
most vulnerable members of our communities is extraordinary and 
these workers deserve our gratitude, our respect, and our 
commitment to ensuring that they are safe on the job.
    For this reason, I want to thank Mr. Courtney for coming 
forward with this bill to give us an opportunity to have a 
robust discussion about it. And I do appreciate that, Mr. 
Courtney, you are a great Member of Congress and a good friend.
    The nature of work in these industries requires health care 
and social service workers to interact directly with 
individuals who are experiencing tremendous stress, trauma, and 
grief, which can cause a situation to devolve and put workers 
safety at risk. Under the General Duty Clause of the 
Occupational Safety and Health Act of 1970, employers are 
already required to take definitive steps to protect employees 
and provide a safe work environment.
    But an acknowledgment of the particular risks facing health 
care and social service workers OSHA has taken concrete steps 
in the rulemaking process to better understand the 
circumstances that exist for these workers and to determine how 
to provide these industries with a solution. And I share the 
frustration about it not happening fast enough.
    We need a solution that protects workers and provides 
employers with the necessary flexibility to ensure that their 
employees are safe on the job. Therefore, I want to go on 
record strongly supporting protections for workers in this 
industry in regard to workplace violence. I also commend OSHA 
for its rulemaking activities in this area and urge the agency 
to move forward expeditiously in this regard.
    In December 2016, almost literally as they were walking out 
the door, the Obama Administration's OSHA initiated rulemaking 
process by issuing a public request for information on 
workplace violence in these sectors. The following month, in 
January 10, 2017, the agency held a meeting with stakeholders 
to discuss the specific challenges facing these workers.
    Once the Trump administration assumed leadership, OSHA 
doubled down on these rulemaking efforts by scheduling a small 
business panel on the rulemaking for early 2019. Meanwhile, the 
Trump administration's OSHA continues to provide employers with 
the best practices for ensuring a safe work environment and 
continues to issue citations to employees who fail--employers 
who fail to prevent workplace violence under the General Duty 
Clause for the OSHA Act.
    These are positive and deliberate steps and by undertaking 
this rulemaking process, OSHA is striving to create a 
thoroughly researched approach that addresses the risk of 
workplace violence and the hospital and home health care 
settings fully and effectively.
    I am concerned however, that the legislation under 
discussion, H.R. 1309, might undermine this ongoing rulemaking 
process. Instead of allowing for a collaborative and evidence-
based process, I am concerned we are intentionally or 
unintentionally ramming through a regulation with limited input 
from affected stakeholders.
    The proposed bill was introduced only a week ago and 
frankly I think needs further discussion and work. That is OK, 
that is what we do in these committees.
    H.R. 1309, in an effort to speed up the rulemaking process, 
takes some short cuts and doesn't allow OSHA the time or the 
ability to adequately conduct additional studies or analyze 
public comments. Instead, the bill seeks to impose a mandate 
and I am concerned that not enough research has been done on 
the critical topic. Protecting workers from instances of 
workplace violence is a policy priority that Republicans and 
Democrats see eye to eye on.
    I would prefer that this committee holds oversight hearings 
to allow Committee members to hear directly from individuals 
and experts so that we can formulate the best course of action 
to keep our caregivers safe. When things go wrong, our 
caregivers rise to the occasion. They deserve a thoroughly 
vetted and researched solution that protects them in the line 
of duty.
    It is the responsibility of members of this committee to 
approach complex and important matters under our jurisdiction 
like the issue before us today with are and dedication to 
ensure that we do right by these valued members of our 
communities. And I yield back.
    [The statement of Mr. Byrne follows:]

Prepared Statement of Hon. Bradley Byrne, Ranking Member, Subcommittee 
                on Subcommittee on Workforce Protections

    Thank you for yielding.
    Allow me to begin this afternoon by saying that protecting the 
safety of health care and social service workers is not a partisan 
issue. It doesn't take having a liberal or conservative bent to 
appreciate the hard work and empathy that hospital workers and 
community caregivers demonstrate every single day on the job. Their 
dedication to caring for the most vulnerable members of our communities 
is extraordinary, and these workers deserve our gratitude, our respect, 
and our commitment to ensuring that they are safe on the job.
    The nature of work in these industries requires health care and 
social services workers to interact directly with individuals who are 
experiencing tremendous stress, trauma, and grief, which can cause 
situations to devolve and put workers' safety at risk.
    Under the general duty clause of the Occupational Safety and Health 
Act of 1970 (the OSH Act), employers are already required to take 
definitive steps to protect employees and provide a safe work 
environment. But in acknowledgement of the particular risks facing 
health care and social service workers, the Occupational Safety and 
Health Administration (OSHA) has taken concrete steps in the rulemaking 
process to better understand the circumstances that exist for these 
workers, and to determine how to provide these industries with a 
solution. We need a solution that protects workers and provides 
employers with the necessary flexibility to ensure that their employees 
are safe on the job.
    Therefore, I want to go on the record strongly supporting 
protections for workers in this industry in regards to workplace 
violence. I also commend OSHA for its rulemaking activities in this 
area and urge the agency to move forward expeditiously in this regard.
    In December 2016, almost literally as they were walking out the 
door, the Obama Administration's OSHA initiated a rulemaking process by 
issuing a public request for information on workplace violence in these 
sectors. The following month, on January 10, 2017, the agency held a 
meeting with stakeholders to discuss the specific challenges facing 
these workers.
    Once the Trump administration assumed leadership, OSHA doubled down 
on these rulemaking efforts by scheduling a small business panel on the 
rulemaking for early 2019. Meanwhile, the Trump administration's OSHA 
continues to provide employers with best practices for ensuring a safe 
work environment, and continues to issue citations to employers who 
fail to prevent workplace violence under the general duty clause of the 
OSH Act.
    These are positive and deliberate steps, and by undertaking this 
rulemaking process, OSHA is striving to create a thoroughly researched 
approach that addresses the risks of workplace violence in the hospital 
and home health care settings fully and effectively.
    I am concerned the legislation under discussion today, H.R. 1309, 
might undermine this ongoing rulemaking process. Instead of allowing 
for a collaborative and evidence-based process, I am concerned we are 
intentionally or unintentionally ramming through a regulation with 
limited input from affected stakeholders. The proposed bill was 
introduced only a week ago and needs further discussion and work.
    H.R. 1309, in an effort to speed up the rulemaking process, takes 
unnecessary shortcuts and doesn't allow OSHA the time or the ability to 
adequately conduct additional studies or analyze public comments. 
Instead, the bill seeks to impose a mandate, and I am concerned not 
enough research has been done on this critical topic.
    Protecting workers from instances of workplace violence is a policy 
priority that Republicans and Democrats see eye-to-eye on.
    I would prefer that this committee hold oversight hearings to allow 
committee members to hear directly from individuals and experts so that 
we can formulate the best course of action to keep our caregivers safe.
    When things go wrong, our caregivers rise to the occasion. They 
deserve a thoroughly vetted and researched solution that protects them 
in the line of duty. It's the responsibility of members of this 
committee to approach complex and important matters under our 
jurisdiction, like the issue before us today, with care and dedication 
to ensure that we do right by these valued members of our communities.
                                 ______
                                 
    Chairwoman ADAMS. Thank you, Mr. Byrne. Thank you, Mr. 
Byrne. Before we begin, I ask unanimous consent to insert into 
the record a statement from the American Federation of State 
County and Municipal Employees and a statement from the 
Emergency Nurses Association. Without objection, all of the 
members who wish to insert written statements into the record 
may do so by submitting them to the committee clerk 
electronically in Microsoft Word format by 5 p.m. on February 
13, 2019.
    I would like to now introduce our witnesses. Our first 
witness, Ms. Patricia Moon-Updike from Cudahy? Cudahy, 
Wisconsin. Ms. Moon-Updike is a registered nurse and a member 
of the Wisconsin Federation of Nurses and Health Professionals, 
an affiliate of the American Federation of Nurses.
    Our next witness, Dr. Angelo McClain is the Chief Executive 
Officer of the National Association of Social workers. Dr. 
McClain has been a licensed and practicing social worker for 
the past 30 plus years, served for 6 years as Commissioner for 
the Massachusetts Department of Children and Families and prior 
to that, Dr. McClain was Vice President and Executive Director 
of Value Options New Jersey and was Vice President of Network 
Management and Regional Operations for the Massachusetts 
Behavioral Health Partnerships.
    Following Dr. McClain, we will hear from Mr. Manesh Rath. 
Mr. Rath is a partner at Keller and Heckman. He is a trial and 
appellate attorney specializing in occupational safety and 
health and other issues.
    Our last witness, Dr. Jane Lipscomb, is a nurse and 
epidemiologist, who spent her career as a Professor of Nursing 
and Medicine at the University of Maryland researching and 
addressing the epidemic of occupational health and safety 
hazards facing our Nation's health care and social service work 
force. She has also served as an expert witness in numerous 
OSHA enhancement enforcement cases.
    To the witnesses, we have a few instructions for you. We 
appreciate all of you for being here today. We do look forward 
to your testimony but let me remind you that we have read your 
written statements and they will appear in full in the hearing 
record. Pursuant to committee rule 7(d), and the committee 
practice, each of you is asked to limit your oral presentation 
to a 5 minute summary of your written statement. And let me 
remind you as well that pursuant to Title 18 of the U.S. code, 
section 1001, it is illegal to knowingly and willfully falsify 
any statement, representation, written or in writing A document 
or material fact presented to Congress or otherwise concealed 
to cover up A material fact.
    And so before you begin you testimony, please remember to 
press the button on the microphone in front of you so it will 
turn on and the members can hear you. And as you begin to 
speak, the light in front of you will turn green. After 4 
minutes, the light will turn yellow to signal that you have 1 
minute remaining. And when the light turns red, your 5 minutes 
have expired and we would ask that you would please wrap it up 
at that time.
    We will let the entire panel make their presentations 
before we move to member questions. When answering a question, 
please remember to once again turn your microphones on. We are 
going to first recognize Ms. Patricia Moon-Updike. Ms. Moon-
Updike.

  STATEMENT OF PATRICIA MOON-UPDIKE, WISCONSIN FEDERATION OF 
                NURSES AND HEALTH PROFESSIONALS

    Ms. MOON-UPDIKE. Thank you, Chairwoman Adams, Ranking 
Member Byrne and members of the subcommittee for this 
opportunity to testify today. My name is Patricia Moon-Updike 
and I am a registered nurse and member of the Wisconsin 
Federation of Nurses and Health Professionals which is 
affiliated with the health care division of the American 
Federation of Teachers. I also want to thank Representative 
Courtney for developing the legislation. This hearing gives 
voice to those who cannot speak for fear of retaliation. During 
my career I worked in an ICU, in obstetrics, in the 
correctional health services and as a psychiatric nurse. I got 
to be what I wanted to be when I grew up.
    During--then, on June 24, 2015, it all changed. I was 
working in the Behavioral Health Division of Milwaukee County 
in the Child and Adolescent Treatment Unit. I was so excited to 
be working with these kids. It was close to the end of my 
shift, and I was sitting with a new nurse orienting on the 
unit. There was a boy, quite large for his age, who was getting 
very aggressive in the hallway. This young man, who was very 
well known to the staff and management, had a history of 
breaking windows and damaging doors in--on that the unit.
    He was not assigned to be my patient that day, but the new 
nurse that I was orienting felt that he needed to intervene so 
I also went to help. The youth was screaming and thrashing. 
Along with his assigned nurse, we worked to deescalate the 
situation and we needed to get him into the seclusion room. 
Someone gave the code for security and we believed that four 
security guards would be coming to help but only two of those 
security guards arrived.
    The patient was bucking and screaming but we got him into 
the seclusion room and set him on the mattress on the floor and 
someone yelled clear. Everyone stepped back away from him and 
then he then spun around on his back and kicked his leg high in 
the air striking me in the neck, hitting me with such force in 
my throat that my head snapped backward and I heard a bang and 
a pop and all the air rushed out of me.
    I grabbed my throat. Someone pulled me out of the room and 
I remember sitting in a chair not being able to breathe, 
holding on to my trachea for dear life and I knew that if I let 
it go, it would collapse and I would die right in that hallway. 
I was praying to stay conscious.
    I was taken to the trauma hospital, which fortunately was 
right across the street. I was so scared out of my mind and I 
feared that I would not be able to say goodbye to my children.
    I woke up after surgery with a large collar around my neck 
and I was fortunate. I was in pain. I was bruised and I was in 
shock but my trachea was intact and I was breathing on my own.
    Two days later the nightmares started. I couldn't sleep. I 
figured it would pass. However, this was a different kind of 
feeling than I had ever experienced before. As time passed, I 
became more scared of people and children being unpredictable. 
Excuse me, sorry.
    Since this injury in 2015, I have been diagnosed with 
moderate to severe PTSD, moderate anxiety, insomnia, depressive 
disorder and social phobia related to this incident. I suffer 
from terrible memory problems. I cannot wear a seat belt 
properly, it comes too close to my neck and I have to wear it 
around my waist. I have not been to a mall, a concert or a 
sporting event since this assault due to my fear of crowds.
    I loved being a nurse. I do not know what to call myself 
now. There is a deep loss when you used to make a difference in 
the lives of people, in your true calling and passion and now 
in that place is extreme sadness and fear.
    The assault that happened to me was not random or a freak 
event, but a predictable scenario that could have been 
prevented had there been a plan in place and more trained staff 
to assist. The individual who assaulted me should have been on 
a one to one assignment given his previous behavior on that 
unit. There should have been four security officers and there 
should have been a plan in place to provide more security if 
there had been multiple incidents going on simultaneously.
    My colleagues spoke to management and pressed for 
improvements but our voices were not heard. I know that the 
requirements in this legislation can help prevent violence. 
Under this bill, the facility that I worked in would be 
required by OSHA to develop violence protection program. This 
is crucial because currently there is no oversight in that 
facility by OSHA or by any State agency.
    We can't accept violence as part of the job. Prevention is 
possible. When systems are put into place to reduce the risk of 
violence when nurses and health care workers are safer, so are 
our patients. We need the equipment, personnel and training to 
do our job safely. Our parents, our patients and our health 
care system cannot afford to lose more good nurses and health 
care workers to prevent preventable violence.
    Since the assault I have challenged myself to do things to 
beat this. I try to still be the person I used to be. I 
promised my union that when I was ready, I wanted to help other 
health care worker providers and I hope telling my story will 
help prevent assaults like this on other health care providers. 
With your help it will.
    I thank you and I respectfully urge you to support this 
legislation.
    [The statement of Ms. Moon-Updike follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman ADAMS. Thank you very much, Ms. Moon-Updike. Dr. 
McClain, you are recognized for 5 minutes.

  STATEMENT OF ANGELO MCCLAIN, CHIEF EXECUTIVE OFFICER OF THE 
             NATIONAL ASSOCIATION OF SOCIAL WORKERS


    Dr. MCCLAIN. Thank you, Chairwoman Adams and Ranking Member 
Byrne and subcommittee members for the opportunity to speak to 
you today and share some of my experiences as a social worker 
over the last 30 years.
    I want to start by telling a story of my first day on the 
job as a social worker. First day, first hour. I was a--it was 
8 a.m. in Amarillo, Texas and a coworker came and said go with 
me, we have got a case. We drove into the black community and 
we knocked on the door and the mother said we do not allow 
white people in our home. So the worker turned to me and said I 
guess this one is yours. And so I went in to the home.
    The door shut immediately behind me. And low and behold 
there was the largest butcher knife I have ever seen in my 
face--in my life in my face. And the mother said to me if you 
get us in trouble I will hunt you down and I will kill you in a 
dark alley. And I looked in--deep into her eyes and I knew she 
was serious.
    And due to my training, I said to her, ma'am, you know, 
please put down the knife. I am here to make sure your children 
are safe. Luckily her husband came out of the back of that 
point and said honey, I think he is here to try to help us.
    Fast forward a few years later, I found myself in one of 
the largest housing projects in Boston. And I went to visit, I 
had this one client I saw every Thursday at 11 a.m. so she knew 
I was coming. And when I got there she was sitting outside on 
the stoop which is never a good thing. And I said to her why 
are you out here?
    And she said well, you are going to be taking my children 
today. I said why are you saying that? She says you've been 
real clear. If A, B, C, and D aren't in place my children had 
to go in foster care. Then she starts yelling he is here to 
take my kids, he is here to take my kids. And a crowd of about 
30 to 50 people gathered around and encircled me and several of 
those folks had weapons, one individual in particular had a gun 
and he wanted to make sure that I knew he had a gun.
    And I thought how did I get myself into this situation and 
how do I get myself out of it. So I told them I am here on 
official business and I want you to disperse. I am going to 
count to three and if you don't disperse, you're going to be in 
a heap of trouble. I used the word heap intentionally thinking 
that might throw them off. And I counted to three. Luckily they 
dispersed and I was able to conduct my business and help that 
mother and eventually she became one of my better clients.
    I kind of share these stories to let you know that the--to 
try to put a face on this and thank you, Patricia, for your 
comments. These tragedies that happen to social workers and 
health care providers, they are far too common. If you take a--
and I'll share just a half a dozen or so situations I'm aware 
of.
    In Congressman Courtney's district in Connecticut in 1998, 
a social worker was murdered by a client as she was entering 
her agency. In 2008 there were two fatalities of a social 
worker, Brenda Yeager in New York as she was making a home 
visit. She was beaten and suffocated. In Massachusetts in 2008 
Diruhi Mattian was murdered while she was doing a home visit. 
In 2009, retired Commander Charles Springle, a Navy social 
worker was shot and killed along with four other colleagues by 
a service member who was seeking counseling services.
    In 2011, Stephanie Moulton from Massachusetts was killed by 
a client with mental illness as she was working in a group 
home. In 2015, Laura Sobel from Vermont who was working for the 
Department of Children and Families there, she was murdered 
while she as exiting the building in her parking lot.
    And just last year, Pamela Knight who worked for the 
Illinois Department of Children and Families was murdered in 
the line of trying to protect children. And I could go on and 
on with these stories.
    Believe it or not, social work is among the 10 most 
dangerous professions that we have. Social workers and health 
care professionals are twice as likely as others to face 
violence at work.
    In a study in 2003, we learned that 58 percent of social 
workers out of about 1,000 respondents reported that they had 
experienced violence in the workplace. And 15 percent of them 
had been physically assaulted within the past year. Based on 
the studies I have looked at, there is about 30 percent of 
social workers who have had a physical--have been physically 
assaulted at some point in their career. 48 percent of social 
workers in a study reported that they had no knowledge of an 
agency safety policy. Violence, workplace violence against 
social workers is real and it happens frequently.
    In 2013, the Bureau of Labor and Statistics reported over 
1,000 social workers were injured on the job. And we know the 
numbers that we are aware of. One study shows that it was 85 
percent under counting in those situations.
    There is hope. Some of my work in Massachusetts and some of 
the work that Governor Patrick did there, we were able to put 
some measures in place. We passed a Social Workers Safety Act 
in 2013 which required all agencies to have a violence 
prevention plan. Fast forward 6 years later, those things are 
in place. And Governor Patrick in 2009 signed into legislation 
a Massachusetts Employee Safety and Health Advisory Committee--
    Chairwoman ADAMS. Dr. McClain, can you wrap up please?
    Dr. MCCLAIN. Yes, I can. Because of OSHA standards didn't 
apply to State employees. I think it is essential that the OSHA 
standards that we get legislation that would put those 
standards in place. Thank you.
    [The statement of Dr. McClain follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman ADAMS. Thank you, sir. Mr. Rath, you have 5 
minutes, sir.

     STATEMENT OF MANESH RATH, PARTNER, KELLER AND HECKMAN


    Mr. RATH. Good afternoon, Chairwoman Adams, Ranking Member 
Byrne, and members of this subcommittee. I am grateful for the 
opportunity to participate in this hearing on H.R. 1309, 
Protecting Health Care and Social Service Workers from 
Workplace Violence. My name is Manesh Rath and I'm a partner at 
the law firm Keller and Heckman in Washington, DC.
    I work with clients every day to develop a sound and 
effective approach to improving workplace safety and health. In 
my testimony today, however, I am expressing only my own 
understanding of the fields of occupational and safety and 
health law and administrative law, and I am not here as a 
representative of my firm, its clients, or any other entity. 
First, let me say we all share a common goal to improve 
workplace safety and health for health care workers. 
Furthermore, it should be beyond dispute that employers have an 
important role to play in addressing the identifiable and 
manageable risks to health care and social service workers. 
However, this bill as drafted raises concerns on several 
grounds. I'll address two.
    First, this bill directs OSHA to proceed straight to 
publishing an enforceable interim final rule without the 
preliminary step of identifying the causes that are known to be 
manageable by an employer and any proven employer 
interventions. This would neglect the longstanding principle 
that safety and health standards should be based on evidence. 
The causes of workplace violence in health care are far from 
understood and the remedy remains unclear.
    Stakeholders can help us understand whether a standard is 
the right approach and if so the proper scope and applicability 
of that standard and what management programs should be adopted 
that would be most effective.
    Before proceeding to rulemaking to develop a legally 
binding standard, OSHA should review its experience with its 
own guidelines that it has published and try and learn what 
experiences it has gained from having issued citations against 
employers under its own General Duty Clause of the Occupational 
Safety and Health Act. In fact, this was the opinion of the 
Government Accountability Office in a report issued to OSHA and 
OSHA agreed.
    Separately, the Centers for Disease Control issued a 
separate report suggesting that more research had to be done 
into the causes and preventions associated with workplace 
violence. Second, this bill would direct OSHA to adopt and 
implement an enforceable, interim final rule without the well 
accepted principle of administrative due process that Congress 
required the agency to implement under the Occupational and 
Safety and Health Act and the Administrative Procedure Act. 
Specifically, the idea that when contemplating a rule, an 
agency should put out notice to all that the possibility of a 
rule is forthcoming and then to allow for comments by affected 
stakeholders and to consider those comments before publishing a 
final rule. Those are the shared cornerstones of administrative 
law and have been so for 72 years.
    This bill in fact acknowledges the importance of deriving 
experience and insight from stakeholders. No less than six 
times in Section 103 of this bill, Section 103 is the section 
which provides a minimum standard for OSHA to implement. And no 
less than six times in Section 103, the minimum standard, the 
standard would require employers to seek input from 
stakeholders from employees, unions, and co-located employers. 
And yet, by the same hand that drafted Section 103, this bill 
would seek to deprive all stakeholders of the opportunity to 
assist in collaboratively fashioning perhaps a better standard.
    And it's not just employers that this bill would seek to 
silence though employers have amassed a considerable experience 
through trial and error and through the collaborative process 
but also employees would be kept from participating in the 
rulemaking process as stakeholders in the comment and hearing 
process.
    Unions and professional associations that represent those 
employees and as well security and technology firms who have 
developed perhaps technologies that have been successful or are 
further improving on those technologies that could be more 
successful in the field of workplace violence.
    Insurance carriers have amassed a trove of data that would 
benefit the process of developing a better rule and the 
scientific and medical communities who perhaps have valuable 
insight into the etiology of workplace violence and perhaps 
also into if effective interventional modalities.
    Any effort to address the issue of workplace violence in 
health care should be thoughtful, should be based on data, and 
on the expertise of those who have experienced it and those who 
study it. This subcommittee can and should have faith that the 
collaborative input of those with experience and learning in 
this field will yield a better approach than the bill we have 
today.
    I thank you for the opportunity to appear before you today 
and I look forward to addressing any questions you may have.
    [The statement of Mr. Rath follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman ADAMS. Thank you very much. We are going to have 
to recess to take votes. We are watching the clock out here as 
well and we will be back immediately after those votes are 
taken. Thank you very much.
    [Recess]
    Chairwoman ADAMS. Good afternoon and thank you for your 
patience. The hearing is called back to order. Dr. Lipscomb, 
you are recognized for 5 minutes.

STATEMENT OF JANE LIPSCOMB, PROFESSOR OF NURSING AND MEDICINE, 
                     UNIVERSITY OF MARYLAND


    Dr. LIPSCOMB. Chairwoman Adams, Ranking Member Byrne and 
members of the subcommittee, my name is Jane Lipscomb. Thank 
you for this opportunity to present my views on the compelling 
need to protect frontline workers under the Workplace Violence 
Prevention for Health Care and Social Service Workers Act.
    My training is as a nurse and an epidemiologist. I have 
spent my career, including the past two decades as a Professor 
of Nursing and Medicine at the University of Maryland 
researching and addressing the epidemic of occupational health 
and safety hazards facing our Nation's health care and social 
service work force with a focus on work place violence 
prevention.
    Of the range of hazards faced by health care and social 
service workers, few issues have received less attention than 
the hazard of workplace violence. This is despite the fact that 
this work force experiences a higher number of non-fatal 
assaults than any other work group.
    And let me be clear, I am not talking about the random acts 
of violence that get much media attention. I am referring to 
the systemic acts of violence that occur every day in these 
workplaces that are predictable and therefore preventable. The 
good news is that we know how to prevent much of this type of 
violence.
    In the course of my work I have conducted federally funded 
research into how to prevent workplace violence in hospitals 
and other high risk settings. In addition, I have consulted 
with numerous State and Federal agencies on how to advance 
workplace violence prevention.
    Quite frankly I have had too much firsthand experience 
working with victims of workplace violence, or in the case of 
workers who were murdered by patients in their care, their 
bereaved families.
    Fortunately though, the vast majority of assaults on health 
care and social service workers are non-fatal. The risk of 
workplace violence that I am most concerned about arises from 
exposure to individuals, their family members and visitors, who 
sometimes are violent, in combination with a lack of 
sufficiently strong violence prevention programs.
    Patients, especially those in hospitals and residential 
settings are often traumatized by the experience, in pain and 
may have altered cognition due to their illness or treatment, 
including prescription and illicit drugs. They may not intend 
to assault their caregiver, but regardless of their intent, an 
employee is still injured. And as we heard this morning, often 
both physically and emotionally.
    While I believe that patient rights and confidentiality are 
important and must be respected, health care and social service 
institutions also need to recognize that workers in these 
facilities have a legal and moral right to come home safely at 
the end of the day. My experience and research show that both 
concerns can be reconciled and H.R. 1309 does that. I am here 
to testify that workplace violence prevention plans, tailored 
to the specific risk, workplace, and employee population work.
    By contrast, voluntary guidelines such as those that were 
first published by OSHA in 1996 and updated in 2015, do not 
protect the vast majority of employees, because they fail to 
incentivize employers to act voluntarily to address this 
hazard. I can attest to that fact because the vast majority of 
health care workers who I have spoken with report that they do 
not have a workplace violence prevention plan or that they have 
a paper plan that does little to nothing to protect them from 
the ongoing risk of violence.
    Evidence that workplace violence prevention plans are 
feasible and work includes research from Wayne State 
University, the Veterans Health Administration and others, as 
well as my own research.
    Here I would also like to emphasize that worker and patient 
safety are inextricably linked. When there is an insufficient 
number of staff to meet patient needs, they act out not only 
toward their caregivers, but also toward other patients. Ask 
anyone who has a family member or a friend who has required in 
patient mental health services and you will hear that is the 
case.
    And finally, I would like to address workplace violence 
protection afforded under the General Duty Clause. Currently, 
when an employer fails to address the problem voluntarily, the 
General Duty Clause is the only tool employees have to advance 
workplace prevention in their workplace. The General Duty 
Clause is a cumbersome and ineffective means of seeking 
protection requiring a very high burden of proof in order to 
issue such a citation.
    In the small number of cases where OSHA has cited an 
employer, the employer may contest the citation, requiring the 
Department of Labor and the company or employer to expend 
resources fighting that citation, rather than investing in 
preventing the hazard. Such cases end up in a hearing before an 
administrative law judge. In the two cases where an 
administrative law judge's decision has upheld the citation, 
including in Integra Health Management case, the employer has 
appealed the decision to the OSHA Review Commission, resulting 
in more costs and delays.
    It is my fear that an adverse ruling in either of these 
appeals would seriously compromise OSHA's ability to enforce 
future workplace violence protections.
    Chairwoman ADAMS. Ms. Lipscomb, can you bring your comments 
to a close please?
    Dr. LIPSCOMB. OK. H.R. 1309 is a relatively modest and 
straightforward piece of legislation that would do much to stem 
workplace violence among the hardworking and committed work 
force for far too long. I urge this subcommittee to act on this 
important bill. Thank you so much.
    [The statement of Dr. Lipscomb follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairwoman ADAMS. And thank you very much. Thank you all 
for your testimony. Under committee rule 8 (a), we will now 
question witnesses under the 5 minute rule and I want to 
recognize myself for 5 minutes.
    Ms. Moon-Updike, can you explain to the committee how 
passage of this bill and issuance of an OSHA standard could 
have prevented what happened to you? You need to--right.
    Ms. MOON-UPDIKE. Yes, thank you, Ms. Chairwoman. 
Absolutely. This bill provides for increased security. I worked 
in a facility where there was not enough security for all the 
units that were in that building. If multiple incidents were 
going on at one time, that security force was extremely 
compromised. And at many times of the day, there were multiple 
incidences going on at one time so you couldn't have the amount 
that you needed to help with those restraint situations or 
crisis calls that were going on throughout the day.
    Also, the--when my incident happened, that young man had 
been aggressive throughout the entire day. If he had been--if 
the staffing was the way that it could have been, he needed to 
be on a one to one staffing situation. And if management would 
have taken the initiative to do that, my situation wouldn't 
have happened at all.
    Chairwoman ADAMS. OK. Thank you very much. Mr. Rath, H.R. 
1309 requires OSHA to issue an interim final standard on 
workplace violence within 1 year but then it gives OSHA an 
additional 30 months to issue a final standard. Yet you state 
that a safety or health standard should be adopted only after 
gathering input from the affected stakeholder community.
    So can you tell me where in H.R. 1309 OSHA is kept from 
gathering input from affected stakeholders before it issues a 
final [standard] or tells OSHA not to adopt and implement a 
final rule without the traditional rulemaking procedures as you 
claim in your testimony?
    Mr. RATH. Thank you for your question. The proposed 
standard in Section 102 I believe, and I can point you to it if 
you're asking, calls for a suspension of it's in Section 101 
(a)(2) where it states that the applicability of other 
statutory requirements shall not apply. One of those is Section 
6(b) of the Occupational Safety and Health Act and the other is 
Chapters 5 and 6 of the Administrative Procedure Act. Those are 
fundamental--
    Chairwoman ADAMS. Excuse me. But that is for the interim 
standard, not the final standard.
    Mr. RATH. Ms. Adams, your question was about the final?
    Chairwoman ADAMS. The final standard?
    Mr. RATH. The problem with waiting until the final standard 
to allow stakeholder involvement, is that at that point the 
interim final standard, which is enforceable, has already been 
put into place and there will be no suspension of enforcement 
during that period. So, employers are going to have to expend 
resources for workplace practices, for engineering controls. 
And to do so, they will do so temporarily only to have to 
change those processes again as a final rule is published.
    So, it's not--the concern with due process here is not that 
stakeholders won't get a chance to participate in the 
development of a final rule, it's that by that point, it's 
first of all too late. Second of all that the resources will 
have already been exhausted during a year during which those 
interventional modalities will have been nothing more than 
temporary and perhaps misspent especially if developed in the 
absence of that stakeholder input in the first place in the 
development of the interim final report.
    Chairwoman ADAMS. OK. You state that the California 
Workplace Violence Standard took only 14 months to issue. Are 
you aware of how long on average it takes OSHA to issue a new 
standard?
    Mr. RATH. There are some standards that haven't taken much 
longer than that. And OSHA has a number of standards that it 
has been able to effectively implement in less than 2 years. 
This proposed bill would take about the same amount of time. It 
would take some time for the bill to be enacted and then after 
that, OSHA has up to 1 year under the terms of this bill to 
implement an interim final rule. And it is conceivable that 
OSHA could publish a, publish a standard in that time.
    But much more importantly, OSHA has other tools within its 
capacity to address the question of workplace violence in 
addition to promulgating a rule and those should be explored as 
well.
    But haste shouldn't be a substitute for gathering evidence 
and data from those affected stakeholders. I think that is 
really one of the most important parts of what is of concern to 
a large number of stakeholders about this proposed ruling.
    Chairwoman ADAMS. Thank you, sir. I'm going to now 
recognize Dr. Foxx for 5 minutes.
    Mrs. FOXX. Thank you for very much, Madame Chairman. Mr. 
Rath, thank you for being here. Thanks to all the witnesses for 
being here.
    The bill being discussed today would require OSHA to issue 
an interim final standard without the agency going through the 
proper rulemaking process and without the agency gathering 
additional data from employers or affected workers. We have 
been told as recently as yesterday that the Committee believes 
in evidence-based policymaking as I do.
    Would data from employers and workers on work force--
workplace violence in the health care and social service 
sectors be helpful in crafting an evidence-based policy on this 
issue?
    Mr. RATH. Thank you for that question, Dr. Foxx. I think 
that the gathering of evidence is one of the most important 
things that government can do when promulgating a rule. And 
indeed, in the Occupational Safety and Health Act, that has 
been written into the requirements for rulemaking both for 
safety and for health standards and that evidence comes from 
all directions.
    It's a truly bipartisan process of gathering evidence from 
employees, employee groups like unions and professional 
associations, the scientific and medical community and as well 
employees and I'm--I would be remiss if I didn't also mention 
that the insurance carriers have amassed amazing data that it 
would be irresponsible to turn our backs on in developing a 
rule of this type.
    Mrs. FOXX. Thank you, Mr. Rath. What's the purpose of an 
agency skipping to an interim final rule rather than going 
through the normal process of issuing a proposed rule first 
before proceeding?
    And if OSHA were to promulgate a workplace violence 
standard such as the one mandated in H.R. 1309, would it be 
appropriate to skip to an interim final rule? And I know you 
have addressed this a little bit earlier but I want to give you 
a chance to emphasize it.
    Mr. RATH. Well, thank you for your question. I think that I 
can think of very few good reasons why a Congress would mandate 
that an agency go directly to an enforceable interim final rule 
without that process of going through due process rulemaking 
including seeking evidence from stakeholders.
    The stated reason in the bill seems to be a sense of haste 
and a mistrust that the agency will do what it is supposed to 
do in going through the rulemaking process.
    And yet for 40 years, or more, OSHA has faithfully executed 
its mission and examined the question of whether or not a rule 
should be promulgated first, as at threshold question. And then 
where it has believed that rules should be promulgated as it 
has done so on a number of occasions. The books are filled with 
OSHA standards but that process should involve the stakeholders 
that the act calls upon OSHA to seek the opinions of.
    Mrs. FOXX. Thank you. Another question. My friends on the 
other side of the aisle are quick to say that OSHA isn't moving 
fast enough in issuing the regulation we are discussing at this 
hearing. However, we have been waiting almost 16 months for the 
Democrats to stop blocking confirmation of the assistance 
sectary of OSHA.
    If OSHA were to have a confirmed assistant secretary, do 
you think that would help them and implement policy including 
regulations such as the one being discussed today?
    Mr. RATH. Well, that's a great question and thank you for 
the question. Without a doubt, and taking nothing away from the 
acting assistant secretary of OSHA who is doing an outstanding 
job. The assistant secretary responsible for heading the agency 
is--plays a significant rule in the development of policy, in 
the development of prioritizations and there can be no doubt 
that a more successful and effective process for nominating and 
putting--installing that person into the position would result 
in a more efficient rulemaking process as with every other 
function at the agency.
    But I don't think it's safe to say that the agency has not 
done enough to address this issue. In 2016, it developed a 
request for information and the year prior it modified its 
guidance document on workplace safety and health care. Then the 
following year, it issued the request for information and its 
gathered information on that and it has put the question of 
workplace violence in health care on the regulatory agenda and 
it has called for the convocation of a SBREFA panel as--on its 
website as early as next month.
    And so I think it is by all accounts appears to be moving 
rapidly on the subject of workplace violence in health care. 
And I think the best thing we can do is let it take its course 
in gathering the evidence and to do this process properly.
    Mrs. FOXX. Thank you. I had a fourth question but I will 
submit it for the record. Thank you, Madame Chairman.
    Chairwoman ADAMS. Thank you. And thank you very much. I'm 
going to recognize now the gentlelady from the State of 
Washington, Ms. Jayapal.
    Ms. JAYAPAL. Thank you, Chairwoman Adams, for holding this 
important hearing today on workplace violence. As we have 
heard, unfortunately workers across the country face this 
terrible situation of workplace violence and for health care 
workers, there are serious risks of violence based injury--
nearly 5 times greater than other sectors. These are the people 
who care for our loved ones and I particularly want to thank 
Ms. Moon-Updike and Dr. McClain.
    We cannot simply accept the risk of violence as quote, 
``part of the job.'' We are lucky to have such dedicated 
workers as the two of you and many others across this country 
who take on these roles but we can't expect you to put 
yourselves in harm's way every single day simply because we 
don't do our job and check that violence.
    There are common sense changes that can be implemented and 
a great deal of this violence and risk can be managed and 
prevented. For example, Aria Jefferson Health in Philadelphia 
implemented several different measures that led to a reduction 
of violence based injuries by 55 percent over just 3 years. 
This could keep our workers safe and save lives.
    So let me start, Ms. Moon-Updike, with you, and I want to 
thank you so much for your testimony and I'm so sorry that you 
have had to go through such a traumatic experience.
    You said that you and your colleagues talked to management 
after the injury. What did they do in response to your 
complaint and do you feel that your voices were heard just when 
it is a voluntary issue of management taking up these concerns? 
Just turn on your microphone.
    Ms. MOON-UPDIKE. I'm sorry.
    Ms. JAYAPAL. There you go.
    Ms. MOON-UPDIKE. Actually, management had told us that they 
were trying their best. And it is often and I don't know how 
many of the general public are aware that there is a code of 
silence in the nursing profession that you don't report. It is 
highly underreported the injuries in the nursing profession. It 
is and excuse my vernacular, but it is pretty much suck it up 
and take it.
    And it is not--it is not very well tolerated to report when 
you have been injured because often it falls back onto you as 
it was your fault for not being careful enough or using a 
protocol.
    So when we approached management, it was what didn't you do 
properly? Not how can we help you. And often again that is the 
common response.
    Ms. JAYAPAL. OK.
    Ms. MOON-UPDIKE. So often that is why it goes under--
violence goes under reported.
    Ms. JAYAPAL. And as so much violence does.
    Ms. MOON-UPDIKE. Right.
    Ms. JAYAPAL. Thank you so much for that. Dr. Lipscomb, can 
you comment on Mr. Rath's testimony that quote, ``The bills 
assertion that employer organizations have challenged OSHA's 
authority to enforce against workplace violence hazards is 
misleading?''
    Dr. LIPSCOMB. I think the fact that employers that have 
been cited under the General Duty Clause are contesting those 
citations in a number of cases is pretty clear evidence of 
that.
    Ms. JAYAPAL. Thank you. And can you discuss some of your 
specific research and the research of others that discusses the 
effectiveness of workplace violence prevention programs such as 
those recommended by OSHA and its guidance and required by H.R. 
1309?
    Dr. LIPSCOMB. Certainly. I would say most the research that 
has looked at interventions in the last 10 plus years have all 
used the OSHA guidelines basically as a template. And 
fortunately, there was finally a randomized controlled clinical 
trial which was the gold standard in research that was 
conducted over a 5-year period of time out of Wayne State 
University researchers.
    They had 7 different hospitals and they randomly assigned 
an intervention based on the OSHA guideline to 20 units and 20 
units didn't get the intervention and they found over the 
course of 2 years that workplace violence-related injuries were 
reduced by 60 percent which was very interesting case. It is 
the same number that you just cited from the Aria Jefferson.
    Ms. JAYAPAL. Right. And I'm just running out of time so I 
am just going to wrap this to say that it sounds like there is 
a lot of research out there. So let me just ask you my final 
question. Do you think that these findings and the other data 
that has been presented by the GAO justify this legislation 
requiring OSHA to move rapidly on issuing a workplace violence 
standard?
    Dr. LIPSCOMB. I definitely do.
    Ms. JAYAPAL. Thank you Ms.--Dr. Lipscomb. I yield back, 
Madame Chair.
    Chairwoman ADAMS. Thank you very much. At this time I want 
to recognize the Ranking Member Mr. Byrne.
    Mr. BYRNE. Thank you. Mr. Rath, I was listening to what Ms. 
Moon-Updike was saying and what would trouble me is if an 
employer retaliated against her or other coworkers at that 
place of employment.
    Under OSHA, isn't there a prohibition on employers 
retaliating against an employee that reports workplace violence 
or makes any sort of comment about the need for improvement?
    Mr. RATH. Thank you for that question, Ranking Member 
Byrne. Yes, the Occupational Safety and Health Act under 
Section 11(c) prohibits retaliation for any instance where an 
employee has exercised their rights under the act and reporting 
an instance of an injury or an illness is covered as well under 
a separate regulation as well as under that section for the 
act.
    So there are protections and there is no doubt that the 
idea that an employee should be protected from retaliation not 
only is but should be a protection that should exist for 
employees under that act.
    Mr. BYRNE. When OSHA starts a formal rulemaking process, 
you know, there are several important and necessary 
opportunities for the regulating community to weigh in on the 
best approach for a solution that is workable, feasible and 
effective. Given that this bill requires OSHA to quickly issue 
an interim final standard would there be any opportunity before 
the interim final standard for the public including the 
employer community to submit comments prior to any of these 
being subject to that regulation?
    Mr. RATH. Thank you for that question. No, and that I think 
is one of the most troubling parts the bill as it's currently 
drafted. The bill specifically directs the agency not to seek 
any input from any stakeholders and informs the agency that a 
bill which is drafted in template in Section 103 or something 
at a minimum that looks like that section should be implemented 
without any stakeholder involvement.
    And that not only includes the comment process but it also 
includes hearings that are typical in the rulemaking process 
and it includes the small business or the small business panel, 
the SBREFA panel process. So there is a number of processes 
where stakeholders get to become involved in a rule that this 
bill specifically directs social deterrents back upon.
    Mr. BYRNE. We know that California was the first State to 
issue a workplace violence prevention standard covering health 
care workers back in 2016. Given that the legislation before us 
today closely mirrors that standard, Mr. Rath, is there--are 
there any takeaways from the California experience that this 
committee should be aware of?
    Mr. RATH. Well, thank you for that question. The problem 
first is that there hasn't been enough time to gain experience 
on the efficacy of that standard. Second of all, there have 
been perhaps eight States that have developed some similar 
standard on the subject and it would be better to look at the 
best elements of each of those standards rather than modeling a 
standard off of just one State.
    And then finally, I would say that if there has been any 
early feedback, is that rule was too hastily put together 
without stakeholder involvement and that there are ways to have 
made that rule or this rule for that matter better in 
protecting workers from workplace violence and I don't think 
that haste is the best way to seek out those better 
opportunities.
    Mr. BYRNE. I thank one of the things that concerns me as 
someone that practiced in this area is that I know that 
industry has a direct interest in making sure that there is a 
safe workplace. Because there is significant liability, I know 
you would agree with that, if industry doesn't do that. So 
often times, the real experts on what the best predicts are to 
keep workers safe are the employers themselves and so you look 
to the employment and the employer community because they are 
the ones that have the experience.
    You also referenced the insurance companies that have a 
whole lot of data. They're the ones that come forward and say 
look, we know because we do this all the time. We know what 
works and what doesn't work. You add to that the experience of 
people like Ms. Moon-Updike and other people like her, all of 
that comes in play for the agency to sit down and make a very 
thorough, well thought out process.
    Isn't that the goal here is to have all these people with 
all these points of information and expertise to give that to 
the regulating body before they make a decision including 
interim final rule?
    Mr. RATH. Mr. Byrne, I think that is exactly right. Not 
only so, but as well the scientific and medical communities who 
understand the science of the causes of workplace violence. But 
the employers themselves are not to be neglected. It's possible 
and it's probably true that some employers have not done enough 
on the question of workplace violence in the health care 
industry.
    But the leading employers in any sector, in any industry 
have come up with the best practices collaboratively through 
their industry associations and individually they have come up 
with leading practices on the management of workplace safety 
and health hazards and that would be true as well for workplace 
violence. And to solicit their acquired experience would be I 
think a route to making this draft standard better.
    Mr. BYRNE. Thank you for your testimony and I yield back.
    Chairwoman ADAMS. Thank you very much. I want to recognize 
the chair of the Committee on Education and Labor, the 
gentleman from Virginia, Mr. Scott.
    Mr. SCOTT. Thank you. Thank you, Madame Chair and thank you 
for holding this hearing. Let me ask a question of I guess Ms. 
Lipscomb. What kind of initiatives can be adopted that would 
actually make a difference? What are some examples of those 
kinds of actions?
    Dr. LIPSCOMB. Well, I think it's pretty clear because the 9 
State laws that have been passed including the California law, 
all basically say the same thing. They all call for this 
process of preparing a workplace violence prevention plan that 
involves direct care worker input and a number of processes to 
evaluate the risk in your workplace and then design 
interventions which are commonsense and specific to the 
workplace--
    Mr. SCOTT. Like what?
    Dr. LIPSCOMB [continuing]. to address those problems.
    Mr. SCOTT. Like what?
    Dr. LIPSCOMB. There are different types of engineering 
devices. We have heard about the need for security from Ms. 
Moon-Updike. I have been in a lot of facilities where they have 
inadequate means for an individual worker to summon support 
when they are being threatened or attacked. There is certainly 
the issue of staffing is one that a number of organizations 
including the one that your colleague mentioned at Aria 
Hospital in Pennsylvania has invoked.
    So there are a whole series of interventions that are 
outlined in the OSHA guidelines and they have actually even 
been adopted in the various publications that have come out 
from the Joint Commission.
    So I think there is really a consensus in the field that 
what is needed is workplace violence prevention plan which is 
what is outlined in this bill.
    Mr. SCOTT. And you have shown through research that when 
you have such a plan, the injuries go down?
    Dr. LIPSCOMB. There is research that indicates that, yes.
    Mr. SCOTT. Now we have been working mostly on guidance, it 
that right?
    Dr. LIPSCOMB. Right. So--
    Mr. SCOTT. And is guidance enforceable?
    Dr. LIPSCOMB. No, guidance is not enforceable.
    Mr. SCOTT. Is the interim final rule after 1 year 
enforceable?
    Dr. LIPSCOMB. My understanding is that it would be, yes.
    Mr. SCOTT. Mr. Rath, do you know if the final interim rule 
is enforceable?
    Mr. RATH. As the bill is drafted, Mr. Scott, the Section 
103 standard would be enforceable without any stakeholder 
comment but the guidance serves as the baseline or a baseline 
for enforceability under Section 5(a)1 of the Act. So there is 
enforceability right now and there has been enforcement.
    Mr. SCOTT. But the guidance would be enforceable only as it 
pertains to an existing regulation.
    Mr. RATH. Well, the Section 5(a)1 which is called the 
General Duty Clause of the OSHA Act allows for enforceability 
if there are generally accepted hazards that are recognized by 
the industry and that there are feasible means of abatement 
that an employer is not taken.
    Mr. SCOTT. OK. Dr. Lipscomb, Mr. Rath just suggested that 
the interim rule would be done without input. Is that in the 
bill?
    Dr. LIPSCOMB. OSHA has already had a request for 
information around their plan to develop a workplace violence 
prevention standard. So there certainly was the opportunity in 
there, I was part of both that hearing public meeting so there 
has been input that has already been provided. And there has 
been input from stakeholders all around the country around 
these other 9 actual laws and as I said, experts in health care 
safety and patient safety have all written documents that 
recommend pretty much the same measures that are described in 
this bill.
    So I completely disagree that there hasn't been an 
opportunity for stakeholder input. In fact, I think there is a 
consensus in the industry on what is needed.
    Mr. SCOTT. Thank you and I yield back.
    Chairwoman ADAMS. Thank you. I thank the gentleman for 
yielding. I want to recognize the gentleman from Virginia, Mr. 
Cline.
    Mr. CLINE. Thank you, Madame Chair. Mr. Rath, transparency 
is a very important issue for me and one that I have worked on 
in the State legislature for many years. Another unique step in 
the OSHA rulemaking process is that the public can request a 
public hearing on a rulemaking and it seems in keeping with 
transparency like an important and valuable step in allowing 
stakeholders to share any concerns or perspectives on an issue.
    How would this step help in promulgating a standard such as 
the one we are discussing here today?
    Mr. RATH. Thank you for that question. So the 
administrative rulemaking process calls for first notice to 
everybody about a proposed rule and then people get to file 
comments and then there is often a hearing and the hearing--and 
the--to answer your question, the hearing serves the valuable 
role of allowing the agency as well as stakeholders to question 
the authors of those comments and to question various other 
critical stakeholders on the sufficiency of their comments to 
test the reliability of those comments to further understand 
any ambiguities that might have incidentally arisen from those 
comments.
    And that dedacted process that takes place in those 
hearings like any rulemaking in any governmental branch is the 
place where people develop a fuller understanding of what is 
being proposed and what the comments are about that proposal 
and this proposed bill would eliminate that critical rulemaking 
step.
    Mr. CLINE. Thank you. And I also see that one of the 
implications of this bill is that it would allow this 
particular rulemaking to skip ahead for lack of a better term, 
in line and in front of all other ongoing OSHA rulemaking 
efforts.
    In your opinion, what are the circumstances under which 
OSHA should choose to expedite a rulemaking effort in this 
manner and does this issue demand that level of prioritization 
above all others?
    Mr. RATH. That is a good question. Well, to begin with we 
have some guidance on when OSHA should choose to move an issue 
to the top of its rulemaking danger and that comes through 
emergency temporary standards for example. Where if for toxic 
substances or for a new hazard, the agency may implement an 
emergency temporary standard but even then rulemaking, the 
proper rulemaking process should be observed. It's simply that 
this gives us some idea of what constitutes an emergency. And 
in this case, we are not dealing with a new hazard. This is 
something where OSHA issued its first guidance in 1996.
    As to what are the kinds of circumstances here that would 
permit us to conclude that this is an emergency or deserves to 
go to the top of the list? Well, I think that is precisely the 
question that stakeholders should be able to weigh in on and 
although there are some statistics that have been reported, I 
think that the rulemaking process where stakeholders 
participate gets to test the sufficiency of those statistics as 
against all other OSHA priorities.
    It may be that the collective number of cases reduced by 
all of the other elements of the OSHA agenda may or may not 
outweigh the urgency dictated by the statistics of the number 
of cases in the field of workplace violence and health care.
    Mr. CLINE. Thank you.
    And finally, as you know, OSHA still lacks an assistant 
secretary to lead the agency more than 2 years in the Trump 
administration and 16 months after he was nominated to the 
post. What role does the assistant secretary have in creating 
and prioritizing OSHA's regulatory agenda and how does this 
obstruction interfere with that?
    Mr. RATH. Well, it's a great question and the assistant 
secretary has a significant hand in the development of policy 
as well as prioritization of projects. And in the absence of a 
secretary, and again, the assistant secretary, the acting 
assistant secretary has been doing an excellent job. But in the 
absence of an actual assistant secretary, it is difficult for 
the agency to move forward on significant initiatives lacking 
that guidance from a person who has been empaneled in the 
proper procedure.
    Mr. CLINE. Thank you. Madame Chair, I yield back.
    Chairwoman ADAMS. Thank you very much. Oh, OK. I want to 
recognize Mrs. Omar. You are recognized for 5 minutes.
    Ms. OMAR. This juggle between committees is an exercise we 
have to get used to. Thank you. Dr. Lipscomb, in your 
testimony, you acknowledged that health care workers are more 
likely to experience non-fatal assaults than any other worker 
group. And that to me seems like a scary statistic. And so I 
wanted to see if you can maybe tell us a little bit within your 
extensive research, have you been able to collect any data on 
the rates of violence against workers and in particular, I know 
that many of the workers within nursing or within hospitals, 
assistant nurses, tend to be immigrants. And so I wanted to see 
if you can tell us if you have some data around immigrant 
workers and how they might be targeted and might be vulnerable 
in the workplace.
    Dr. LIPSCOMB. Thank you for that question. I believe the 
statistics are that 1 in 6 health care workers are an immigrant 
so there are obviously make up a substantial proportion of the 
health care work force.
    When it comes to the job titles of nursing assistants or 
tech or someone who is a personal care assistant in the home, 
those are extremely high risk kinds of job occupations and they 
are much more likely to have a larger proportion of immigrants 
working in the particular roles.
    And there is one statistic from the Paraprofessional Health 
Institute that indicates that 1 in 4 of the workers that 
provide physical care to, you know, all of our elderly and 
disabled in the home are immigrants. And I can get you that 
reference.
    Ms. OMAR. Yes. So with about 25 percent of those workers 
being immigrants, the threat of violence and harassment and the 
fear of having your status held against you is something that 
may for these workers know a little too well.
    Dr. LIPSCOMB. Right.
    Ms. OMAR. And many of these immigrants might be afraid to 
file complaints against discrimination or harassment or 
violence they might face in the workplace. So I wonder if you 
have any suggestions for us here in Congress to provide 
protections for some of these vulnerable workers that a lot of 
people don't think about when they're putting protections in 
place.
    Dr. LIPSCOMB. I think that this bill would go a long way in 
protecting all types of workers. I think one of the elements in 
the California regulation and it's been incorporated here is, 
you know, a focus on training so that workers understand the 
risks that they're facing when they go on the job and 
importantly, what they can do to minimize these risks and also 
encouraging them to report to their supervisor or employer when 
there is the risk or when they've been injured. And, you know, 
basically make sure that the employer is not going to 
discriminate in any way.
    I know that Mr. Rath has mentioned the part of the OSHA Act 
that deals with discrimination but it's very hard for most 
workers even if they know about that opportunity to actually 
pursue it and there's a huge backlog of those cases.
    So I think this piece of legislation and a subsequent OSHA 
regulation would, you know, definitely reduce the risk to all 
types of workers.
    Ms. OMAR. Thank you. My sister has been a nurse for 18 
years and many of my constituents in CD5 in Minnesota, mainly 
Minneapolis, are people who are PCA's, nurses, assistant nurses 
and people who love taking care of their patients. And so for 
us to put the focus on making sure that they themselves are 
taken are of so that they can do the work of taking care of our 
most vulnerable is an important work.
    So I thank the committee for prioritizing this bill and 
putting this into effect and for all of you for coming to share 
your testimony with us. Thank you. I yield back.
    Chairwoman ADAMS. Thank you. The lady yields back. Mr. 
Courtney, we are going to recognize you and thank you so much 
for this bill and for joining us today. We will recognize you 
for 5 minutes.
    Mr. COURTNEY. Well, thank you, Madame Chairwoman. And 
again, I want to thank you for your leadership. Obviously 
moving this bill within 2 months of the new Congress definitely 
shows your commitment to responding to what was really I think 
a very detailed, thorough document from the Government 
Accountability Office which emanated from this subcommittee.
    I was back then along with Congressman Miller, Mr. Scott's 
predecessor, the ones who requested the GAO report because of 
the fact that so much anecdotal constituent input was coming in 
about what's happening out there.
    My wife is a pediatric nurse practitioner and works in a 
specialty clinic that deals with child abuse and again, it's a 
very intense, highly charged environment that is there and 
which requires help with security guards and safe design of 
workplace. So probably every member can talk about a family 
member or somebody they know that has been experiencing this 
situation.
    And again, the GAO report, which took the years to compile, 
and again used, you know, tremendous input from experts 
reviewed studies were cited throughout their document as well 
as obviously the gathering of data. And again, what I think 
showed is that we have a situation which is frankly is toxic as 
any of the emergency situations which Mr. Rath talked about 
where an interim rule was adopted.
    Again, I would just note and I would just ask Dr. Lipscomb 
just to confirm, I mean, the language in the bill that talks 
about not later than 1 year the interim final standard should 
be promulgated. There is nothing in that language which 
prohibits the gathering of input or data from any stakeholders, 
isn't that correct?
    Dr. LIPSCOMB. That's correct. And I would also add that 
over a period of a couple years, culminating in some online 
tools that OSHA produced in 2015, OSHA with a contractor went 
across the country to identify best practices in violence 
prevention so they have been collecting that information. And 
there are great details of these examples of employers really 
stepping up to the plate to do above and beyond what is in the 
guidelines that is posted on OSHA's website. Another example of 
stakeholder input.
    Mr. COURTNEY. And again, this is not Terranova, you know, 
they have had voluntary guidelines going back to the 1990's 
which as you say have been updated. So this is not some, you 
know, brand new undertaking.
    And again, within that year period for an interim rule, 
which I think the data from GAO more than justifies, the fact 
of the matter is there is no prohibition in this bill that says 
there can't be input from other stakeholders. And again, the 
bill then goes on to allow a 42 month period for the final rule 
which again will be used for the purpose of getting input for a 
final rule.
    There is precedent in OSHA for following that exact step by 
step process whether its lead-in-construction or hazardous 
waste and emergency response which again used an interim rule 
to deal with the situation which I think, you know, most people 
and the GAO report certainly validates, requires swift action. 
But not, you know, precipitous action, I mean, that has 
measured data and experience that the voluntarily guidelines as 
well as that yearlong period as well as the peer review 
information that came in from the GAO, isn't that correct?
    Dr. LIPSCOMB. That's correct.
    Mr. COURTNEY. Yes, thank you. And I want to again thank Dr. 
McClain and Ms. Moon-Updike for coming here and really putting 
a human face on this issue. You know, I just thought maybe as a 
social worker and somebody who was in the field in a behavior 
health setting, I mean, the uptick in violence which again is, 
I mean, that trajectory is actually accelerating in terms of 
what you are seeing out there, is that correct?
    Dr. MCCLAIN. Yes. We are seeing, you know, more violence as 
there is, you know, more substance use and more critical, you 
know, kind of situations we are going into and we know with the 
opioid crisis the removal, child welfare removals have gone up 
20 percent.
    So it's just, you know, working in those environments 
there's more opportunity or more tendency to confront violence 
situations.
    Mr. COURTNEY. Ms. Moon-Updike, I didn't know if you wanted 
to share your experience?
    Ms. MOON-UPDIKE. Absolutely. We are also seeing more 
violent youth come in to our behavioral health divisions. We 
are seeing an increase in homelessness and with mental health 
issues so with more violent tendencies.
    And if I can also go back to one other thing that was 
stated previously. I am from the State of Wisconsin and the 
facility that I worked in, there was no OSHA oversight and 
there was no stage agency oversight. So this bill would provide 
that for us because right now there is none.
    Mr. COURTNEY. Great. Well, than you again to all the 
witnesses for being here--
    Ms. MOON-UPDIKE. Thank you.
    Mr. COURTNEY [continuing]. today. I yield back.
    Chairwoman ADAMS. I am going to recognize Mr. Khanna from 
California.
    Mr. KHANNA. Thank you, Chair Adams. I want to thank you for 
your leadership and for allowing me to join this hearing of the 
Education and Labor Committee. I also want to thank our chair, 
Bobby Scott, for championing such an issue. And of course my 
colleague, Representative Joe Courtney for introducing this 
bill to make the workplace safer for health care and social 
workers. Thank you for your leadership.
    And then I want to recognize the California Nurses 
Association and National Nurses United for leading this effort 
in California back in 2014.
    You know, I was so surprised to hear, I would go into rooms 
with nurses and I would say how many of you have faced violence 
at the workplace? And the majority of hands would go up. You 
know, we work in Congress and it's not civil but we don't face 
violence. I mean, it is a tough job being a health care worker 
or a social service worker and it is about time we had 
legislation to address this.
    I think this legislation goes a long way. It incorporates 
some of the law that was a part of California in updating the 
OSHA rule and it is a comprehensive solution that will help not 
just nurses but also health care workers and social service 
workers more generally.
    I would now like to ask a few questions to Dr. Lipscomb. 
What States have effective models in violence prevention? You 
don't have to mention my State of California if you, but you 
can. What would you say?
    Dr. Lipscomb. So California of course comes to mind and I 
think each of these States have learned what previous States 
have promulgated and then have improved upon them. So I would 
also mention New York State has a very good workplace violence 
prevention law. New Jersey, Oregon, Washington State.
    We have one in Maryland that doesn't have a lot of teeth 
but there are many, many good models out there.
    Mr. KHANNA. And could you explain the advantages of passing 
this legislation rather than just letting OSHA move forward on 
its normal regulatory pace? I know Chair Adams discussed this 
earlier but would love your insight.
    Dr. Lipscomb. Well, I think what we heard from the 
chairwoman is that on average it takes 7 years for a standard 
and it can take up to 20. And I think if you think about the 
testimony that you heard today from Ms. Moon-Updike and you 
multiply that story by tens of thousands of health care workers 
all around the country that experience this on a daily basis, 
you will realize why we need this mechanism to encourage OSHA 
to make this a priority and promulgate an interim final 
standard and a final standard in the shortest amount of time 
possible.
    And again, because the other States have gone through the 
process of collecting stakeholder input and a lot of the 
voluntary professional organizations are recommending the same 
thing, I think that is the difference.
    Mr. KHANNA. And I want to thank you, Ms. Moon-Updike, for 
being here and overcoming such a tragedy to be active and push 
for change. I really admire that.
    Dr. Lipscomb, do you think if we had a standard like New 
York or a law like Mr. Courtney's that we could have prevented 
the type of tragedy that befell Ms. Moon-Updike?

    Dr. LIPSCOMB. Yes, I think so based on her account of it. 
There are inevitably some incidents that might not be 
preventable but I think the vast majority of them are and now 
we have one very strong study, methodologically and examples 
elsewhere where over a couple years, year period of time there 
has been a reduction in the range of like 40 to 60 percent.
    Mr. KHANNA. You know, I want to give Ms. Moon-Updike the 
last word. I mean, Ms. Moon-Updike, what inspires you to be 
here and fight for this and what would you like to see from the 
United States Congress?
    Ms. MOON-UPDIKE. Thank you for your question, sir. I didn't 
know when I would be ready to do this, to help other health 
care workers. And about 3 weeks ago at our medical trauma 
center in Milwaukee, Wisconsin, we lost a nurse and she was 
killed in the place that she worked. And she was raped. She was 
beaten and then she was run over with her car in the parking 
structure where she worked. And she was left there to freeze on 
the ground. And she died.
    She was a nurse practitioner in the oncology unit. Her name 
was Carly. Sorry. And she was not found for 2 hours. She was 
found by a snowplow crew. She was not found by security. And 
the administration said when asked why the security cameras did 
not find her, the administration said because the campus is too 
big for all the areas to be watched and for every--and for 
security guards to be--take every employee out. That could have 
been me. I almost died the day that I was injured. And she did 
die. She was 33 years old. And at that point I was angry.
    So I decided that it was time to get off my rear end, 
excuse my vernacular again, and do something and make, try to 
make sure that didn't happen again and that somebody was 
accountable for Carly dying. Because there is a sisterhood and 
a brotherhood of nurses and we put ourselves out there to help 
people.
    We help your mothers, your brothers, your daughter, your 
sons, your wives, your husbands. We do that. And who is helping 
us? Who was there for her but a plow drier. That's why I am 
here.
    Mr. KHANNA. Well, I just want to thank you again, Ms. Moon-
Updike for taking such grief and heartbreak and turning it into 
a positive purpose. It is citizens like you that give me hope 
for our country. Thank you.
    Ms. MOON-UPDIKE. Thank you. Thank you.
    Chairwoman ADAMS. Thank you very much. I want to remind my 
colleagues pursuant to committee practice, materials for 
submission to the hearing record must be submitted to the clerk 
within 14 days following the last day of the hearing. Materials 
must be submitted--must address the matter of the hearing and 
only a member of the committee or invited witnesses may submit 
materials. Documents are limited to 50 pages. Any pages longer 
than that will be incorporated into the record via internet.
    I want to thank again all the witnesses for your 
participation today and for your testimony and what we have 
heard is extremely valuable to us. And members of the committee 
may have some additional questions for you. We ask them to 
please respond to those in writing and the hearing record will 
be held open for 14 days in order to receive those responses.
    I remind my colleagues that pursuant to committee practice, 
witness questions for the hearing record must be submitted to 
the majority committee staff or committee clerk within 7 days. 
The questions submitted must address the subject matter of the 
hearing. I want to now recognize the--my ranking member for his 
closing statement.
    Mr. BYRNE. Thank you, Madame Chairman, and thank you all 
the witnesses today. Good testimony. I think it helps all of us 
understand this better.
    Ms. Moon-Updike, I hope the perpetrator of the crime you 
just told us about is prosecuted to the fullest extent of the 
law. I really hope that whoever did this is caught and we do 
with him as the fullest extent that we can do with someone that 
commits a crime like that.
    Dr. McClain, thank you for pointing out something that we 
should all be aware of and that is that the drug crisis in this 
country and the mental health crisis in this country is 
spiraling out of control and you all are on the front lines and 
the victims of what that means.
    Mr. Rath, I thank you for reminding us that there are 
procedures here that we are here to--that we are supposed to 
follow before we put out laws and regulations in this country 
and the reasons beyond all of that although it sounds like a 
lot of process stuff, the process stuff is important.
    And Dr. Lipscomb, thank you for the findings that you have 
made over the years. I would like for you to have an input into 
this regulation which is why I think we need to get OSHA 
moving.
    I doubt that this bill is going to become law in this 
Congress and I don't want to wait that long so I'm going to 
make an offer to Mr. Courtney, my good friend and to Ms. Adams, 
the Chairman of the Subcommittee. Maybe we should get the folks 
from OSHA to come over here and talk to us about what we can do 
between now and the end of this Congress to get OSHA to speed 
this process up and get something done here.
    And with that, ladies and gentlemen, you will have to 
excuse me I have got a five o'clock I have to go get. Thank 
you.
    Chairwoman ADAMS. Thank you very much. I want to get 
unanimous consent to submit to the record the testimony of the 
National Nurses United--the United--National Nurses United 
which is before the House of Education and Labor Committee 
today. All right.
    I want to thank the ranking member and everyone who came 
out today. And particularly I want to say to all of our 
witnesses, thank you first of all for your patience and the 
fact that we had to go vote and you are still here. We 
appreciate that very much.
    I want to now recognize myself for closing statements. 
Again thank you. Your testimony has been very valuable and your 
expertise as well.
    I think I speak for all for the members of the subcommittee 
when I say that we learned an enormous amount of valuable 
information from you today. I am an educator by training. I 
taught 40 years. But I know that education is an ongoing 
process and so I am going to--I am continuing to learn and I 
have learned from you.
    But I think for me in terms of personal reference, my mom 
had a care giver. I was a partial caregiver for her. She lived 
until she was age 90, passed away a couple of years ago. So I 
understand the work that you do. I appreciate the work that you 
do.
    And as a matter of fact, I worked in a nursing home to work 
myself through college so I certainly have a lot of empathy for 
the things that we brought today.
    We have heard compelling evidence this afternoon that 
workplace violence is a serious and life threatening problem 
for this Nation's front line health care and social service 
workers. This hazards--these hazards are not only predictable 
but they are also preventable.
    Mr. Courtney, thank you for your leadership with this bill. 
I think that we can all agree that going to work shouldn't mean 
getting hurt at work.
    H.R. 1309 which we have discussed today would provide the 
protection that these workers need and that they deserve. And 
to clarify again H.R. 1309 allows OSHA to go through its full 
rulemaking process including public input before issuing a 
final standard.
    Now given that, I believe that we all share our witnesses 
concerns about the seriousness of these threats and I hope that 
we will be able to work together on a bipartisan basis to move 
this legislation forward.
    And if there is no further business? I don't hear any. All 
right. Without objection the committee stands adjourned.
    [Additional submissions by Chairwoman Adams follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Whereupon, at 5:04 p.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
